                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00223-93


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

       VA Eastern Colorado 

        Health Care System 

         Denver, Colorado 





March 18, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         Medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
                                      CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                                                           Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of January 13, 2014, at the
following CBOCs, which are under the oversight of the VA Eastern Colorado Health
Care System and Veterans Integrated Service Network 19:

    La Junta CBOC, La Junta, CO

    Lamar CBOC, Lamar, CO

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and Designated Women’s Health Provider Proficiency reviews.
However, we made recommendations in the following review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	     Registered Nurse Care Managers receive motivational interviewing and health
       coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	     Document that medication reconciliation was completed at each episode of care
       where the newly prescribed fluoroquinolone was administered, prescribed, or
       modified.

	     Provide medication counseling/education that includes the fluoroquinolone.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–17, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.
 




                                                                                                                                            
                                                                                                              JOHN D. DAIGH, JR., M.D. 

                                                                                                             Assistant Inspector General for 

                                                                                                                Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                                                                          i
                         CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                        CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                              CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the La Junta and
Lamar CBOCs. The table below shows the areas reviewed for this topic. The facility generally
met requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                               3
                              CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


NM               Areas Reviewed (continued)                                Findings
       All medications are secured from
       unauthorized access.
       Personally Identifiable Information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                               4
                              CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

Table 3. AUD

NM                     Areas Reviewed                                       Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 9 of 16 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 2 of 16 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

1. We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                 5
                              CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 21 (53 percent) of 40 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling/education that included the
       patients’ EHRs.                                   fluoroquinolone in 7 (18 percent) of 40 patient
                                                         EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.


Recommendations

2. We recommended that all staff document that medication reconciliation was completed at
each episode of care when the newly prescribed fluoroquinolone was administered, prescribed,
or modified.

3. We recommended that staff provide medication counseling/education that includes the
fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                                     6
                              CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               7
                                                                   CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                                                                  Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                            d
                                                                                    Uniques                                   Encountersd

                            Station               e     CBOC                g
       Location    State                Locality             f        MH         PCh       Otheri       All       MHg        PCh       Otheri       All
                               #                         Size
    Colorado
                    CO      554GE         Urban       Very Large     6,880      12,789     14,971     19,923     51,075     32,616     66,280    149,971
    Springs
    Pueblo          CO      554GD         Urban          Large       3,425      6,796      7,628      9,633      30,000     18,117     43,105     91,222
    Aurora          CO      554GB         Urban          Large        423       7,227      2,196      7,531      2,804      19,657      4,025     26,486
    Lakewood        CO      554GC         Urban        Mid-Size       337       4,653      1,097      4,931      1,970      10,912      1,599     14,481
    Alamosa         CO      554GF         Rural        Mid-Size       374       2,006       933       2,148      2,683       4,172      3,111      9,966
    La Junta        CO      554GG         Rural          Small        221        954        470       1,061      2,464       2,203       973       5,640
    Burlington      CO       554GI     Highly Rural      Small         61        432        273        457        340        1,242       892       2,474
    Lamar           CO      554GH         Rural          Small         50        368        200        377        182        1,257       522       1,961
 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    8
                       CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                                Tele-Health
         CBOC               Specialty Care Servicesk            Ancillary Servicesl
                                                                                                 Servicesm
Colorado Springs                     Dental                        Radiology                 Tele Primary Care
                                  Optometry                        Audiology
                                  Cardiology                     Rehabilitation
                                                                                n
                                    Surgery                    MOVE! Program
                                 Orthopedics                        Nutrition
                                 Dermatology                  Prosthetics/Orthotics
                               General Surgery                    Social Work
                             Obstetrics/Gynecology         Diabetic Retinal Screening
                                    Urology                Pulmonary Function Test
                              Medicine Specialties                 Pharmacy
                                  Pain Clinic
Pueblo                            Optometry                    Health Screening              Tele Primary Care
                                     Dental                      Rehabilitation
                                    Podiatry                       Radiology
                                 Dermatology                    MOVE! Program
                                  Pain Clinic                      Laboratory
                                Endocrinology              Diabetic Retinal Screening
                                                              Prosthetics/Orthotics
                                                                   Audiology
                                                                    Nutrition
                                                           Pulmonary Function Test
                                                                   Pharmacy
Aurora                            Dermatology                  Health Screening              Tele Primary Care
                                   Pain Clinic                     Pharmacy
Lakewood                               ---                             ---                   Tele Primary Care

Alamosa                           Dermatology              Diabetic Retinal Screening        Tele Primary Care

La Junta                                ---                     Health Screening             Tele Primary Care
                                                                MOVE! Program
Burlington                              ---                     Health Screening             Tele Primary Care

Lamar                                   ---                              ---                          ---

 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  Move! Prog: VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                          9
                                                                                      CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                                                                                     Appendix B


                                                                             PACT Compass Metrics
                                                        FY 2013 Average 3rd Next Available in PC Clinics
                               60.0

                               50.0
    Average Number of Days




                               40.0

                               30.0

                               20.0

                               10.0

                                 0.0
                                                       Eastern                                         Colorado
                                                                    Aurora   Lakewood        Pueblo               Alamosa    La Junta     Lamar    Burlington
                                        VHA Total   Colorado HCS                                        Springs
                                                                   (554GB)    (554GC)       (554GD)               (554GF)    (554GG)     (554GH)    (554GI)
                                                        (554)                                          (554GE)
                             OCT FY13     14.6          27.2        21.8       21.2           5.2        8.7        3.1        5.6         4.4        16.2
                             NOV FY13     15.2          37.1        21.3       31.7           7.6        9.8        5.8        7.8         6.0        15.6
                             DEC FY13     13.8          29.9        19.7       12.8           5.1        9.8        6.0        11.3        2.8        13.0
                             JAN FY13     14.0          35.0        20.6       13.1           7.0        8.8        2.8        10.7        2.2        14.9
                             FEB FY13     14.8          30.6        16.5       14.0           7.1        10.2       7.7        14.0        4.2        15.0
                             MAR FY13     13.3          23.1         5.3       10.3           6.1        14.7       3.0        7.6         2.9        18.3
                             APR FY13     14.4          25.3        33.7       12.0           6.3        14.8       6.0        7.7         2.1        26.9
                             MAY FY13     16.0          29.0        14.9       22.4           7.1        13.5       5.3        5.5         5.9        18.3
                             JUN FY13     14.2          27.4        19.8       14.1           7.1        16.9       10.1       9.0         1.6        17.8
                             JUL FY13     14.6          34.9         9.4       19.2          10.7        20.6       13.5       51.2        2.2        16.8
                             AUG FY13     15.7          26.0        11.9       19.6          12.8        27.8       7.8        36.0        3.2        9.0
                             SEP FY13     13.4          29.6        10.4       23.1          13.4        27.3       3.9        34.0        7.7        11.2



 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                                         10
                                                                                         CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO



                                                              FY 2013 Established PC Prospective Wait Times 7 Days

                                                  100%



                                                  80%
              Percentage of Patients Scheduled

                Within 7 Days of Desired Date




                                                  60%



                                                  40%



                                                  20%



                                                   0%
                                                         OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13 JUL FY13 AUG FY13 SEP FY13
     VHA Total                                            83.5%    81.1%    82.4%    82.6%    83.2%    83.6%    84.0%    84.0%    84.1%    84.3%    84.5%    84.7%
     Eastern Colorado HCS (554)                           70.9%    66.9%    65.0%    65.1%    62.7%    71.4%    71.0%    75.5%    75.4%    73.7%    73.3%    77.4%
     Aurora (554GB)                                       92.9%    87.7%    89.9%    90.9%    90.2%    93.5%    89.4%    88.8%    89.4%    90.0%    91.9%    95.5%
     Lakewood (554GC)                                     90.4%    82.7%    90.6%    93.2%    91.7%    91.7%    92.6%    86.9%    90.1%    89.9%    87.5%    91.1%
     Pueblo (554GD)                                       70.1%    74.6%    74.8%    79.4%    72.8%    78.3%    82.3%    92.2%    87.0%    82.8%    79.2%    80.4%
     Colorado Springs (554GE)                             48.4%    47.7%    51.2%    52.9%    56.4%    58.9%    62.1%    57.1%    65.1%    62.2%    68.4%    69.9%
     Alamosa (554GF)                                      94.6%    86.5%    64.1%    81.3%    85.6%    87.1%    87.0%    96.6%    93.8%    98.1%    91.5%    97.5%
     La Junta (554GG)                                     56.2%    58.2%    54.7%    52.4%    50.0%    47.7%    47.4%    41.6%    66.7%    68.9%    73.8%    79.7%
     Lamar (554GH)                                        96.6%    89.5%    95.7%    91.7%    86.5%    97.6%    100.0%   94.4%    100.0%   85.0%    100.0%   100.0%
     Burlington (554GI)                                   92.4%    83.8%    91.8%    96.5%    96.5%    96.2%    90.4%    92.7%    93.5%    94.9%    93.8%    90.9%




 Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
 total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                                11
                                                                                   CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


                                                       FY 2013 Ratio of ER Encounters While on Panel to
                                                       PC Encounters  While on Panel (FEE ER Included)
                                               22%
                                               20%
                                               18%
                 Percentage of ER Encounters
                      to PC Encounters         16%
                                               14%
                                               12%
                                               10%
                                               8%
                                               6%
                                               4%
                                               2%
                                               0%
                                                     OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13 JUL FY13 AUG FY13 SEP FY13
        VHA Total                                     16.3%    16.3%    16.4%    16.3%    16.3%    16.3%    16.1%    16.1%    16.0%    15.9%    15.8%    15.7%
        Eastern Colorado HCS (554)                    20.7%    19.9%    19.4%    19.3%    19.2%    19.3%    19.4%    19.4%    19.6%    19.4%    19.4%    19.6%
        Aurora (554GB)                                18.1%    17.9%    18.2%    18.7%    18.6%    18.7%    18.1%    18.3%    18.7%    18.6%    18.5%    18.2%
        Lakewood (554GC)                              16.6%    16.4%    16.3%    16.3%    16.2%    16.0%    16.3%    16.7%    16.8%    16.7%    16.6%    16.4%
        Pueblo (554GD)                                9.3%     8.8%     8.6%      8.4%     8.3%     8.4%     8.2%     8.2%     8.2%     7.8%     7.1%     6.1%
        Colorado Springs (554GE)                      9.8%     9.8%     9.7%      9.8%     9.7%     9.6%     9.5%     9.1%     8.8%     8.5%     8.0%     7.7%
        Alamosa (554GF)                               6.9%     6.6%     6.3%      6.1%     6.0%     6.2%     6.0%     5.6%     5.6%     5.6%     5.0%     4.8%
        La Junta (554GG)                              9.6%     9.7%     9.2%      9.0%     8.9%     8.9%     9.3%     9.0%     8.8%     8.4%     8.0%     7.6%
        Lamar (554GH)                                 4.6%     4.1%     4.0%      4.0%     4.0%     4.5%     4.1%     3.9%     3.7%     1.7%     1.0%     0.0%
        Burlington (554GI)                            2.8%     2.5%     2.3%      2.3%     2.2%     2.1%     2.0%     2.2%     2.3%     2.5%     2.7%     2.2%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                            12
                                                                   CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                    13
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


       Date: 	         February 24, 2014

       From: 	         Director, Rocky Mountain Network (10N19)

       Subject: 	      CBOC and PCC Reviews of the VA Eastern Colorado
                       Health Care System, Denver, CO

       To: 	           Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. We are submitting written comments in response to the Community
          Based Outpatient Clinic and Primary Care Clinic Review completed
          January 13–17, 2014, at the VA Eastern Colorado Health Care System
          (ECHCS) at Denver, Colorado for the La Junta and Lamar, Colorado
          Clinics.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. Network 19 concurs with the report.

       3. If you have any questions regarding this response, please contact
          Ms. Susan Curtis, VISN 19 HSS, (303) 639-6995.




           Ralph T. Gigliotti, FACHE




VA OIG Office of Healthcare Inspections                                                     14
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


       Date:           February 21, 2014

       From:           Director, Eastern Colorado VA Health Care System (554/00)

       Subject:        CBOC and PCC Reviews of the VA Eastern Colorado
                       Health Care System, Denver, CO

       To:             Director, Rocky Mountain Network (10N19)

       1. 	 We are submitting written comments in response to the Community
           Based Outpatient Clinic and Primary Care Clinic Review completed
           January 13–17, 2014, at the VA Eastern Colorado Health Care System
           (ECHCS) at Denver, Colorado for the La Junta and Lamar, Colorado
           Clinics.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant area cited in
          the report. ECHCS concurs with the report.

       3. If you have any questions regarding this response, please contact
          Mr. Keith Harmon at (303) 398-7469.



           (original signed by:)

           Lynette A. Roff




VA OIG Office of Healthcare Inspections                                                     15
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: June 30, 2014

Facility response: The CBOC Nurse Manager and ECHCS PACT Coordinator will
coordinate PACT, MI & Health Coaching training. The Nurse Manager will maintain a
current list of their specific PACT RN Care Managers and dates of PACT, MI, & Health
Coaching training to ensure that the training is completed within the 12 months of
appointment to PACT.

The Facility will continue to monitor monthly over the next 4 months. This will be
reported to the Accreditation Committee and will be reflected in the monthly minutes.

Recommendation 2. We recommended that all staff document that medication
reconciliation was completed at each episode of care when the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: June 30, 2014

Facility response: A new clinical reminder is being created that indicates the need for
medication reconciliation, which includes fluoroquinolones. This reminder will appear
every time a patient comes in for any outpatient clinician whether primary care or
sub-specialty appointments and will be incorporated into the Licensed Independent
Practitioner’s clinic appointment note.

A Pharmacy Designated Representative will monitor medication reconciliation monthly
over the next 4 months. Compliance results will be reported to the Accreditation
Committee and will be reflected in the monthly minutes.

Recommendation 3.             We recommended that               staff   provide    medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: June 30, 2014



VA OIG Office of Healthcare Inspections                                                     16
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO


Facility response: Pharmacy implemented additional verbiage on the fluoroquinolone
prescription label regarding proper timing of administration and drug-drug, drug-nutrient
interactions. An in-service was provided for all outpatient pharmacy staff regarding
overview of fluoroquinolone therapeutic uses, pharmacology, proper administration,
drug interactions, and adverse drug reactions. Pharmacists are currently dispensing &
documenting, in the Pharmacy VISTA package/Pharmacy progress note, that
medication information sheets for fluoroquinolones were given to the patient & patient
counseling/education was completed.

A Pharmacy Designated Representative will monitor monthly over the next 4 months.
This will be reported to the Accreditation Committee and will be reflected in the monthly
minutes.




VA OIG Office of Healthcare Inspections                                                     17
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Michael Bishop, MSW, Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Cheryl Walker, ARNP, MBA
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     18
                     CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Eastern Colorado Health Care System (554/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Michael F. Bennet, Mark Udall
U.S. House of Representatives: Diana DeGette, Cory Gardner


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     19
                         CBOC and PCC Reviews at VA Eastern Colorado Health Care System, Denver, CO
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
    Violence, 2004.
	  Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	  VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	  VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	  VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	  VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
    March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
    Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
    Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
    September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_20
   13_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
    for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
    Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    20
